           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



          CONTROLS OVER
         MULTIPLE PAYMENTS
           TO ATTORNEYS

   September 2006   A-12-06-20016




 AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                SOCIAL SECURITY
MEMORANDUM

Date:      September 27, 2006                                                                            Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Controls Over Multiple Payments to Attorneys (A-12-06-20016)


           OBJECTIVE

           Our objective was to determine whether the Social Security Administration (SSA) had
           adequate controls over multiple payments made to attorneys.

           BACKGROUND
           The Office of Disability Adjudication and Review holds hearings as part of SSA's
           process for determining whether a person is eligible for benefits. In Fiscal Year
           (FY) 2005, approximately 1,100 Administrative Law Judges (ALJ) rendered about
           500,000 decisions at the hearing level. The first step in the appeals process is called
           reconsideration. 1 If the claimant disagrees with that decision, the claimant may request
           a hearing before an ALJ. The claimant may select an attorney or other qualified
           individual to represent him or her at the hearing. Claimant representatives are
           permitted to charge and receive a fee for their services.

           Attorneys acting as claimant representatives file either a “fee agreement” or a “petition
           to obtain payment” for their services, either of which must be approved by an ALJ. 2
           Attorneys can also petition for a higher fee. Attorneys may request that SSA withhold
           their fees and make direct payments from beneficiaries’ past due benefits. 3 Attorney
           fees are payable by SSA only if the case is favorably decided for the claimant.



           1
               State Disability Determination Services perform this function.
           2
               A fee specified in an agreement is limited to the lesser of $5,300 or 25 percent of past due benefits.
           3
             In March 2004, the President signed the Social Security Protection Act of 2004 into law. See Pub. L. No.
           108-203, 118 Stat. 493 (2004). Section 303 of the Act allows non-attorneys who meet specific
           requirements to request that SSA withhold their fees and make direct payments from beneficiaries’ past
           due benefits. However, non-attorneys did not begin to qualify for such payment procedures until 2005. As
           a result, the payments reviewed in this report relate only to payments to attorneys.
Page 2 – The Commissioner

To cover administrative costs, SSA deducts an assessment (user fee) from attorney fee
payments. Prior to September 2004, the user fee was 6.3 percent of the attorney fee
payment. Since September 1, 2004, the user fee has been calculated at 6.3 percent of
the fee payment, not to exceed $75. 4

Attorney fee payments are processed by staff at eight Program Service Centers (PSC)
using the Single Payment System (SPS). SPS replaced the manual One Check Only
(OCOA) payment system in May 2002. SPS is a national system used to automate
attorney fee payments and other Title II payments that cannot be made through the
current Title II system. It was created to ensure timeliness of attorney fee payments,
stop duplicate and erroneous payments, reduce the number of inputs, and provide
management information.

PRIOR AUDIT WORK

We reviewed fees paid to attorneys and reported on the results in an August 2001
       5
report. At that time, the OCOA system was used to process payments to attorneys.
We found SSA made duplicate payments to attorneys, staff did not follow procedures,
and attorney fee payments with invalid or incorrect Social Security numbers were not
detected. 6 We made a number of recommendations related to our findings and SSA
                           7
agreed with most of them. For those recommendations with which SSA disagreed,
SSA stated that SPS should resolve those issues. 8 A focus of our current audit was to
test whether SPS reduced improper payments.

RESULTS OF REVIEW

During Calendar Years (CY) 2003 and 2004, we estimate SSA issued 594 improper
payments to attorneys totaling approximately $2.2 million. While this represented a
small portion of the approximately 458,000 attorney payments issued during this period,
additional controls could have prevented these improper payments. For example, SSA
staff had the ability to bypass system warnings and process payments without
indicating the reason for the override or obtaining supervisory approval. We also found
the Agency improperly recorded the processing fees collected from each attorney
payment. As a result, collected fees associated with the attorney payments may be
overstated.


4
    See Social Security Protection Act of 2004, Pub. L. No. 108-203, 118 Stat. 493 (2004), § 301.
5
 See SSA Office of the Inspector General, Approval of Claimant Representatives and Fees Paid to
Attorneys (A-12-00-10027), August 2001.
6
    Id. at ii-iii.
7
    Id. at iv.
8
    Id.; see also Appendix F, pp. F-2 through F-5.
Page 3 – The Commissioner

ATTORNEY FEE PAYMENTS
As noted, we estimate SSA made about 594 improper payments totaling approximately
$2.2 million during CYs 2003 and 2004. We defined an improper payment as (1) a
duplicate attorney fee check or (2) the reissuance of a check prior to the return of the
previous check or the placing of a stop payment on it.

Our population consisted of 9,880 beneficiary records with attorney payments from
CYs 2003 and 2004 containing 2 or more identical attorney fee payments. We divided
this population into 3 groups for analysis (see Figure 1).

                     Figure 1: Breakout of Multiple Payment Population
                                               (9,880 Payments During CYs 2003 and 2004)

                                            10,000          9,250
                                             9,000
                  Number of Beneficiaries




                                             8,000
                                             7,000
                                             6,000
                                             5,000
                                             4,000
                                             3,000
                                             2,000                              565
                                             1,000                                                  65
                                                 0
                                                        ts




                                                                           ts




                                                                                               ts
                                                       en




                                                                          en




                                                                                             en
                                                     ym




                                                                        ym




                                                                                           ym
                                                 Pa




                                                                     Pa




                                                                                        Pa
                                                2




                                                                    3




                                                                                        7
                                                                                      4-




                                                                    Number of Payments


We tested 265 sample transactions and determined that 27 attorney fee payments
were erroneously paid by SSA, relating to $122,350 in total payments (see Table 1 for
the sample results). We projected these results to the relevant groups and estimated
that 594 improper payments relating to approximately $2.2 million were paid in CYs
2003 and 2004 (see Appendix C for our sampling methodology and results).
Page 4 – The Commissioner

             Table 1: Sample Results of Fee Payments Made to Attorneys
      Identical                              Number of
      Attorney                               Beneficiary                             Average Dollar
    Payments Per                            Records with          Dollars of          Value of an
     Beneficiary                              Improper            Improper             Improper
       Record           Sample Size          Payments             Payments             Payment
         2                   150                   8              $28,410                  $3,551
         3                   50                    8              $34,160                  $4,270
        4-7                  65                   11              $59,780                  $5,435
       Totals                265                  27              $122,350

Table 1 also indicates that the more times a payment is reissued to an attorney for a
beneficiary, the greater the potential size of any associated improper payment. The
average improper payment per beneficiary record increased from $3,551 in the
2-payment sample to $5,435 in the 4 or more payment group. Accordingly, the earlier
in the process a problem related to a fee payment is corrected, the lower the related
average dollar value.

We also found that in over a third of the sample improper payments, the attorneys
                                                                             9
cashed the improper payment checks and retained the funds (see Figure 2). We
notified SSA’s Office of Finance staff of all cashed improper payments identified during
our tests so they can start the collection process.

                             Figure 2: Improper Payments by Type
                               (27 Payments from CYs 2003 and 2004)

                                                                               Cashed by
                                                                                Attorney
                                                                                  37%




                      Returned by
                       Attorney
                          63%




9
  In 10 of the 27 improper payment checks in our sample, attorneys cashed the payments and retained the
funds (see Figure 2).
Page 5 – The Commissioner

Attorney Payment Manual Overrides
We found that the majority of the improper payments related to benefit authorizers (BA)
overriding SPS system alerts. 10 SPS generates two or three warnings to the BA,
depending on the triggering factor, when it detects a potential problem. 11 If the BA
overrides all warnings, the payment can be processed and issued.

For example, in one case a BA processed an attorney fee payment of $4,534, which
related to the second identical attorney payment on a beneficiary’s record. Initially,
SPS warned that “Total Attorney Payment Exceeds Maximum,” but the BA overrode
this warning. Then, SPS generated a second warning stating “Attorney Payment
Exceeds Amount Withheld.” Again, the BA overrode this warning. SPS generated a
final warning indicating “Possible Duplicate Payment on SPS.” The BA overrode the
third warning, and the improper payment of $4,534 was processed and issued. The
recipient cashed both checks and kept the funds.

During these overrides, the BA was never required to explain the reason for overriding
the warnings or obtain supervisory approval to continue processing the payment. If
SPS required annotated remarks explaining the reason for the override prior to
proceeding to the next step, and if these remarks were also verified by a second party,
the chances of an erroneous payment could have been reduced. When we discussed
this matter with PSC personnel, they agreed that additional language and a second
review could enhance the integrity of the payment process.

Attorney User Fees
Our sample test results indicated that SSA overstated attorney user fees collected
within its system. Initially, when SSA processed an attorney fee payment, it recorded
two transactions: the payment (net of user fee) and the related user fee. If the same
attorney payment had to be reissued (i.e., related check returned because of incorrect
address), SSA properly reversed the payment transaction for the returned check, but
did not reverse the related user fee transaction. When SSA reissued the check, it
again recorded two transactions: 1) a payment; and 2) a second user fee (because the
first user fee entry was not reversed). This resulted in the recording of two user fees for
the same payment. 12 Moreover, if a check was reissued 4 times, the same process
took place and the user fee was recorded 4 times.



10
  In our August 2001 report, Approval of Claimant Representatives and Fees Paid to Attorneys
(A-12-00-10027), we had a similar finding regarding BAs who did not always follow procedures when
addressing the override indicator.
11
     Program Operations Manual System SM 008.34.420, SPS Processing of the Override Action Screen.
12
  As noted earlier, prior to September 2004, the user fee was 6.3 percent of the attorney payment;
whereas, after September 1, 2004, it was 6.3 percent of the attorney payment, not to exceed $75.
Page 6 – The Commissioner

Of the 265 sample records, we found SSA staff had erroneously recorded the user fee
more than once for 253 records, or about 95 percent of the time, and overstated the
user fee amount by $86,822. Projecting these results to our population of
9,880 records, we estimate that SPS overstated user fees for CYs 2003 and 2004 in
9,422 cases by approximately $1.6 million. We discussed this matter with the Office of
Finance staff and they agreed that the user fee amounts were being overstated in the
Agency’s accounting system. SSA’s Office of Systems acknowledged that this was
caused by a systems error and agreed to correct the problem in FY 2007.

CONCLUSION AND RECOMMENDATIONS
Our review of multiple attorney payments indicated that improper payments occurred
due to manual overrides. While the multiple attorney payments represented a small
amount of overall payments, we believe enhanced controls over this process could
reduce the risk of improper payments. We also found that the systems need to be
modified to eliminate the recording of excessive user fees.

To improve payment controls and reduce the issuance of improper payments, we
recommend SSA:

1. Collect the outstanding improper payments identified in our sample and determine
   whether it is cost beneficial to identify and collect other improper payments in our
   population.

2. Modify SPS to reduce the risk that manual overrides will lead to improper payments.
   This could include (i) requiring annotated remarks explaining the reason for
   overriding each SPS warning and/or (ii) supervisory approval of each override.

3. Ensure Agency systems properly record payments to attorneys and associated user
   fees in accordance with regulations.

AGENCY COMMENTS

SSA agreed with our recommendations and has already initiated corrective action. The
full text of the Agency’s comments is included in Appendix D.




                                            Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology and Results
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                      Appendix A

Acronyms
ALJ    Administrative Law Judge
BA     Benefit Authorizer
CY     Calendar Year
FY     Fiscal Year
OCOA   One Check Only Payment System
ODAR   Office of Disability Adjudication and Review
PSC    Program Service Center
SPS    Single Payment System
SSA    Social Security Administration
                                                                       Appendix B

Scope and Methodology
To accomplish our objective, we:

   •   Reviewed criteria pertaining to attorney fees, past due benefits, attorney fee
       agreements and petitions, and user fees.

   •   Reviewed prior Office of the Inspector General report on attorney fees.

   •   Met with Social Security Administration (SSA) staff to gain a better
       understanding of the Single Payment System (SPS), the Payment History
       Update System, the Manual Adjustment, Credit and Award Data Entry system,
       and the Modernized Claims System.

   •   Reviewed the attorney fee process within the Office of Disability Adjudication and
       Review (ODAR) and the Program Service Centers (PSC).

   •   Conducted interviews with ODAR and PSC personnel.

   •   Initially, our data extract included attorney fee payments contained in
       457,974 beneficiary records. We determined that to meet our audit objective, we
       would only test multiple payments made to attorneys. Accordingly, we extracted
       from this data a population of 9,880 beneficiary records containing two or more
       identical payment amounts to attorneys. We selected and tested a stratified
       sample of 265 records from this population as detailed in Appendix C.

   •   Reviewed each selected record to determine whether (1) a duplicate attorney fee
       check was issued, (2) a check was issued prior to the return of the previous
       check or placing of a stop payment on it, and (3) user fees were properly
       calculated. In those cases where it appeared an improper payment may have
       occurred, we reviewed the transaction in the Department of Treasury’s
       Payments, Claims and Enhanced Reconciliation system.

We determined that the data used in our audit was sufficiently reliable to meet our
objectives. We conducted our field work from October 2005 through May 2006 in
Morgantown, West Virginia; Baltimore, Maryland; and Philadelphia, Pennsylvania. The
entities audited were the PSCs in the Office of the Deputy Commissioner for
Operations; hearing offices in the Office of the Deputy Commissioner for Disability
Adjudication and Review; and the Office of Finance in the Office of the Deputy
Commissioner for Budget, Finance and Management. We conducted this audit in
accordance with generally accepted government auditing standards.
                                                                    Appendix C

Sampling Methodology and Results
Our population consisted of 9,880 beneficiary records containing 2 or more attorney fee
payments. These attorney fee payments represented all attorney payments made
during Calendar Years (CY) 2003 and 2004. We divided our population into three
groups for analysis (see Table C-1):

   •   Group 1: This subset represented 9,250 records with 2 attorney payments. We
       randomly selected 150 items for review.

   •   Group 2: This subset represented 565 records with 3 attorney payments. We
       randomly selected 50 items for review.

   •   Group 3: This subset represented 65 records with 4 or more attorney payments.
       We reviewed every item in this subset.

                  Table C-1: Sample Population of Attorney Payments
                                for CYs 2003 and 2004
  Number of Attorney
                            Number of Beneficiary
    Payments Per                                            Population Tested
                                 Records
  Beneficiary Record
            1                      448,094
        Subtotal                                                   NA
            2                       9,250
        Subtotal                                                  9,250
            3                        565
        Subtotal                                                   565
            4                        51
            5                         9
            6                         3
            7                         2
        Subtotal                                                    65
          Total                    457,974                        9,880




                                            C-1
ATTORNEY FEES TES T RES ULTS
Our testing of 265 fee payments to attorneys resulted in 27 improper payments totaling
$122,350. Projecting these results to the population, we estimate that the Social
Security Administration (SSA) issued 594 improper payments to attorneys totaling
approximately $2,197,772 (see Tables C-2 through C-4). All projections in the following
tables were calculated at the 90-percent confidence level.

                            Table C-2: Attorney Fee Test, Group 1
                      Two Attorney Fee Payments Per Beneficiary Record
                               Sample Results and Projections
 Segment population size                                                         9,250
 Sample size                                                                       150
                                    Attribute Projection
 Sample cases – number of improper payments                                         8a
 Projection – number of improper payments in our population                        493
 Projection lower limit                                                            249
 Projection upper limit                                                            869
                                    Variable Projection
 Sample cases – total dollars of improper payments                            $28,410b
 Projection – total dollars of improper payments in our                     $1,751,981
 population
 Projection lower limit                                                       $477,183
 Projection upper limit                                                     $3,026,779
         a
Notes:       Includes 3 checks that were cashed.
         b
             Includes $3,567 of cashed improper payments.

                            Table C-3: Attorney Fee Test, Group 2
                     Three Attorney Fee Payments Per Beneficiary Record
                               Sample Results and Projections
 Segment population size                                                           565
 Sample size                                                                        50
                                    Attribute Projection
 Sample cases – number of improper payments                                         8c
 Projection – number of improper payments in our population                         90
 Projection lower limit                                                             47
 Projection upper limit                                                            150
                                    Variable Projection
 Sample cases – total dollars of improper payments                           $34,160 d
 Projection – total dollars of improper payments in our                      $386,011
 population
 Projection lower limit                                                      $177,421
 Projection upper limit                                                      $594,601
         c
Notes:       Includes 3 checks that were cashed.
         d
             Includes $12,798 of cashed improper payments.



                                                    C-2
                         Table C-4: Attorney Fee Test, Group 3
              Four to Seven Attorney Fee Payments Per Beneficiary Record
                                        Universe Results
  Total segment population                                                          65
  Number reviewed                                                                   65
  Number of improper payments                                                      11e
  Total dollars of improper payments                                          $59,780f
          e
 Notes:        Includes 4 checks that were cashed.
          f
              Includes $9,702 of cashed improper payments.

US ER FEES TES T RES ULTS

We tested the same sample to determine whether user fees were correctly calculated.
We found that SSA staff properly reversed the payment entries for returned checks in
the Agency’s system, but had not reversed the related user fee entries. When SSA
reissued the checks, the payment entries and related user fee entries were made,
resulting in the Agency recording user fee income twice for the same payment.
Moreover, if a check was reissued 4 times, the same process took place and the user
fee was recorded 4 times.

Overall, our testing of 265 user fee cases resulted in 253 overstated user fees totaling
$86,822. Projecting these results to the universe, we estimate that SSA recorded
9,422 cases of overstated user fees totaling $1,574,250 (see Tables C-5 through C-7).

                           Table C-5: User Fee Test, Group 1
                   Two Attorney Fee Payments Per Beneficiary Record
                             Sample Results and Projections
 Segment population size                                                           9,250
 Sample size                                                                         150
                                    Attribute Projection
 Sample cases – number of overstated user fees                                       143
 Projection – number of overstated user fees in our population                     8,818
 Projection lower limit                                                            8,458
 Projection upper limit                                                            9,045
                                     Variable Projection
 Sample cases – total dollars of overstated user fees                           $20,779
 Projection – total dollars of overstated user fees in our                   $1,281,345
 population
 Projection lower limit                                                      $1,105,601
 Projection upper limit                                                      $1,457,089



                                                 C-3
                        Table C-6: User Fee Test, Group 2
               Three Attorney Fee Payments Per Beneficiary Record
                        Sample Results and Projections
Segment population size                                                    565
Sample size                                                                 50
                                   Attribute Projection
Sample cases – number of overstated user fees                               48
Projection – number of overstated user fees in our population              542
Projection lower limit                                                     498
Projection upper limit                                                     561
                                    Variable Projection
Sample cases – total dollars of overstated user fees                    $22,025
Projection – total dollars of overstated user fees in our              $248,887
population
Projection lower limit                                                 $203,149
Projection upper limit                                                 $294,625

                       Table C-7: User Fee Test, Group 3
          Four to Seven Attorney Fee Payments Per Beneficiary Record
                                   Universe Results
Total segment population                                                    65
Number reviewed                                                             65
Number of overstated user fees                                              62
Total dollars of overstated user fees                                  $44,018




                                         C-4
                  Appendix D

Agency Comments
                                        SOCIAL SECURITY
MEMORANDUM

Date:      September 22, 2006                                                   Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Controls Over Multiple Payments to
           Attorneys” (A-12-06-20016)--INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report’s
           recommendations are attached.

           Please let me know if you have any questions. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                        D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “CONTROLS OVER MULTIPLE PAYMENTS TO ATTORNEYS”
(A-12-06-20016)

Thank you for the opportunity to review and provide comments on this draft report.

Recommendation 1

Collect the outstanding improper payments identified in our sample and determine whether it is
cost beneficial to identify and collect other improper payments in our population.

Comment

We agree. We will track our efforts for these cases, and we will determine whether it is cost
beneficial to identify and collect other improper payments in the full population. However, any
decision to extend the collection efforts to the full population will also be dependent on resource
constraints.

Recommendation 2

Modify the Single Payment System (SPS) to reduce the risk that manual overrides will lead to
improper payments. This could include: i) requiring annotated remarks explaining the reason for
overriding each SPS warning and/or; ii) supervisory approval of each override.

Comment

We agree. We will determine the most effective method to modify SPS in tracking and/or
controlling manual override conditions. If systematic changes in SPS are determined necessary,
the implementation of those changes will be predicated on available resources.

Recommendation 3

Ensure Agency systems properly record payments to attorneys and associated user fees in
accordance with regulations.

Comment

We agree. We have a planned system correction for fiscal year 2007 (November 2006 release)
that will significantly reduce the number of duplicate user fees currently posted.




                                                D-2
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Walter Bayer, Director, Philadelphia Audit Division, (215) 597-4080

   Michael Maloney, Audit Manager, (703) 578-8844

Staff Acknowledgments
In addition to those named above:

   Ehab Bestawrose, Auditor-in-Charge

   Richard Devers, IT Specialist

   Ellen Silvela, Auditor


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-12-06-20016.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
